No.
In the Supreme Court of the United States
DANNY VELOZ,
Petitioner
v.
UNITES STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts:
a. United States District Court for the District of Massachusetts, in case
number 12-cr-10264-RGS.
b. United States Court of Appeals for the First Circuit, in case number 172136.
Undersigned counsel was appointed to represent the petitioner under the
Criminal Justice Act of 1964. Pursuant to 18 U.S.C. ยง 3006A(d)(7), petitioner is

1

excused from filing the affidavit required by 28 U.S.C. ยง 1915(a).
Respectfully submitted,
DANNY VELOZ
By his attorney,
/s/ Mark W. Shea
Mark W. Shea
Shea and LaRocque, LLP
929 Massachusetts Avenue, Suite 200
Cambridge MA 02139-3134
617.577.8722
markwshea@gmail.com

Dated: August 7, 2020

Counsel for Petitioner

2

